by -
October 5, 1990, based on
                                CLOSEOUT OF M90100040
   An allegation of intellectual theft, a form of plagiarism, was brought to the attention of OIG
                          a program officer in the Directorate for                       on




between S1 and two of his proposals:
to the -Board                  of Science and Technology (NCBST) in 1987. The complainant
alleged that the intellectual content of S1 was derived, without acknowledgment or permission,
from either C1 or C2, the complainant's proposals. The complainant alleged that the subject had
reviewed one or both of these proposals.

    OIG determined that the subject had not reviewed the complainant's C1 proposal. All
records of C2 had been destroyed in accordance with the standard record retention policy of that
organization so that it could not be determined if the subject had reviewed it. A comparison of
the text of C2 (provided by the complainant) and the available NSF proposals submitted by both
the subject and complainant revealed that the most recently submitted proposals by these
individuals described similar research projects. However, it was also apparent that different
intellectual routes had been taken by these two investigators to arrive at a similar research topic.
Both the complainant and the subject received their Ph.D.'s in the same field on similar topics,
under the same individual. Further, the content of the subject's $1 proposal was, in part, the
result of the progressive incorporation of the suggestions made by the reviewers of each of his
previously declined NSF proposals.

    Because of the independent development of converging themes in the research pursued by
these two individuals, and because we were not able to show that the subject reviewed any of the
complainant's proposals, explicit evidence substantiating the allegation of intellectual theft could
not be found.

    In a letter to OIG the complainant alluded to additional misconduct by the subject based on
the content of a paper published by the subject. These allegations included the physical theft of
data and samples mentioned in that paper, intellectual theft, and a failure both to cite NSF grant
support and to provide appropriate authorship credit. The complainant did not provide evidence
for these allegations, but referred OIG to the other informant.

    When contacted, the second informant stated that he had described the application of a
particular technique to the subject. The subject used that application to collect the data reported
in his published paper. The second informant suspected that the subject had collected the data for
that paper in the secoad informant's lab. However, the second informant did not possess
evidence that could prove either that the samples for the experiments reported in that paper were
collected in his lab or that the experiments were performed in his lab. The paper was published
two y-.:.~ .s:. . .-..*.=+.
                   q ~ ~ ~ & +?.?!!?. $ d
                            ;<. ; .
                                               ~ w received
                                            *,>.:
                                                    t : . h 2 dhis: R.D., and three years aher he had accepted a
       s i t i b d L ~ ~ ~ ~ e m P ~ .o ~ ~sufficient
ptheo seurf~~&~&%f=~~~aj24<2G3.5r.                         ,
                                                                     , ~ ~ ~ time
                                                                              a ~ for
                                                                                   ~ othe
                                                                                       w idata
                                                                                            n gto be collected outside of
             . . ...
              ,       .   en--
                                , ,,.y: ,I-- ":
                                      .
                                              r     .-
                       .%
                        ,,-&
                           ;?
                            .":
                                          .
                  ,


                          +&p&
     Discussing ndvel research applications is part of the normal scientific process. Being part of
this creative process does not automatically provide authorship rights to the discussants; one must
usually actively participate in the research effort. Four other individuals were named as authors
on the paper with the subject, and an individual acknowledged for technical assistance is
currently employed at the same institution as the subject. These facts support the position that
the reported research was not done in the second informant's laboratory.

    Therefore, OIG determined that there was not enough evidence to warrant pursuing these
allegations further.

      This case is closed without a finding of misconduct.




Concurrence:



              / -&,-. 0-
 . L L - h F ~5                                   / A / ~ / ~ L   &t-        a,#3             -     I   4 4 1 9 2/
Donald E. Buzzelli                                                fimes J . 240l&k
Senior Scientist, Office of Oversight                             Assistant Inspector General for Oversight




L. Nancy ~irnbaum
Assistant Counsel to the Inspector General

cc:      Assistant Inspector General for Oversight
         Inspector General
